WAIVER

SUPREME COURT OF THE UNITED STATES

No, 20-8059

Hasan Shareef Captain Moore, et al.

(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Iam filing this waiver on behalf of all respondents.

© I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Brian Palko

Please check the appropriate box:

oO Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

© Iam not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: ZU “gi Zw

aa 06/18/2021
(Type or print) Name Daniel B. Mullen

O wr. O Ms. O mrs. O Miss

Firm Pennsylvania Office of Attorney General

Address 1251 Waterfront Place, Mezzanine Level

City & State Pittsburgh, PA Zip 45220
Phone (412) 235-9067 Email dmullen@attorneygeneral.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Hasan Shareef (pro se petitioner)
ce: |
